No. 19-857
In the

Supreme Court of the United States

GPI DISTRIBUTORS, INC.,
Petitioner,
v.
NORTHEAST OHIO REGIONAL SEWER DISTRICT,
Respondent.

On Petition for a Writ of Certiorari to the
Court of A ppeals of Ohio, Cuyahoga County

BRIEF IN OPPOSITION

Jennifer Dowdell A rmstrong
Counsel of Record
McDonald Hopkins LLC
600 Superior Avenue, East, Suite 2100
Cleveland, Ohio 44114
(216) 348-5400
jarmstrong@mcdonaldhopkins.com
Counsel for Respondent

293873

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Did Ohio’s Eighth District Court of Appeals correctly
affirm the Ohio Trial Court’s dismissal of the instant action
when it held that the bond requirement set forth in Ohio
Rev. Code § 2505.06 did not deny Petitioner’s constitutional
access to the courts or violate Petitioner’s right to a legal
remedy, and that Petitioner had an alternative to posting
a bond under Ohio Rev. Code § 2505.11 but made no effort
to substitute the bond?

ii
CORPORATE DISCLOSURE STATEMENT
Respondent Northeast Ohio Regional Sewer District
(“NEORSD”) is not a subsidiary or affiliate of a publiclyowned corporation. No publicly-owned corporation has a
financial interest in the outcome.

iii
STATEMENT OF RELATED CASES
GPI Distributors, Inc., No. 17-006, Northeast Ohio
Regional Sewer District Board Decision. Decision entered
September 12, 2017.
GPI Distributors, Inc. v. City of Cleveland, et al, No. 17887300, Cuyahoga County, Ohio Court of Common Pleas.
Judgment entered October 19, 2017.
GPI Distributors, Inc. v. City of Cleveland, et al., No.
CV-17-883825, Cuyahoga County, Ohio Court of Common
Pleas. Judgment entered May 30, 2018.
GPI Distributors, Inc. v. City of Cleveland, No. 106806,
Court of Appeals of Ohio, Eight Appellate District.
Judgment entered January 24, 2019.
GPI Distributors, Inc. v. City of Cleveland, No. 2019-0352,
Supreme Court of Ohio. Entry declining jurisdiction, May
29, 2019.
GPI Distributors, Inc. v. City of Cleveland, No. 2-19-0352,
Supreme Court of Ohio. Entry denying reconsideration,
August 6, 2019.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
CORPORATE DISCLOSURE STATEMENT . . . . . . . ii
STATEMENT OF RELATED CASES . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . vi
INTRODUCTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTES  . . . . . . . . . . . . . . . . . . . . . . . . 3
RESTATEMENT OF THE CASE . . . . . . . . . . . . . . . . . 5
A. Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 5
B. Procedural History  . . . . . . . . . . . . . . . . . . . . . . . . 6
1.

GPI I  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

2.

GPI II . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
a. Trial Court Decision . . . . . . . . . . . . . . . . 7
b. Ohio’s Eighth District Court
of Appeals Decision . . . . . . . . . . . . . . . . . 9
c.

Supreme Court of Ohio Decision . . . . . . 9

v
Table of Contents
Page
REASONS FOR DENYING THE PETITION  . . . . . 10
I.

The Petition Misrepresents the Record In
This Case . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
A. Petitioner ’s Cla i m of Indigency
Was Not Timely  . . . . . . . . . . . . . . . . . . . . . . 10
B. The Bond Amount Was Set by the Trial
Court, Not Dictated by Statute. . . . . . . . . . 12
C. Petitioner Could Have Appealed
Without Posting the Bond Even if it Had
Established That It Was Indigent. . . . . . . . 13
D. The Eighth District Court of Appeals’
Decision Did Not Rely On Ohio’s
Constitutional Avoidance Doctrine  . . . . . . 13

II. Oh io’s C ou r t O f L a st R e s or t H a s
Not Considered T he Question That
Forms The Basis Of This Petition . . . . . . . . . . . 15
III. T h e r e I s N o S t a t e C o u r t S p l i t
Rega rding Bond Requi rements For
Administrative Appeals . . . . . . . . . . . . . . . . . . . . 16
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vi
TABLE OF CITED AUTHORITIES
Page
Cases
75 Pub. Square v.
Cuyahoga Cty. Bd. Of Revision,
76 Ohio App. 3d 340, 601 N.E.2d 628
(8th Dist. 1991) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Adsani v. Miller,
139 F.3d 67 (2d Cir. 1998) . . . . . . . . . . . . . . . . . . . . . . 18
Ball v. Gee,
243 Mont. 406, 795 P.2d 82 (1990) . . . . . . . . . . . . . . . 21
Boddie v. Connecticut,
401 U.S. 371 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . 19, 21
Boll v. Dept. of Revenue, State of Neb.,
247 Neb. 473, 528 N.W.2d 300 (1995)  . . . . . . . . . . . . 21
Burns v. State of Ohio,
360 U.S. 252 (1959)  . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Cleveland v. Williams,
8th Dist. Cuyahoga No. 106454, 2018-Ohio-2937 . . 11
Coroneos v. Montgomery County,
161 Md. App. 411, 869 A.2d 410 (2005) . . . . . . . . . . . 20
Frizzell v. Swafford,
104 Idaho 823, 663 P.2d 1125 (1983) . . . . . . . . . . . . . 20

vii
Cited Authorities
Page
Jones v. State, Department of Revenue,
248 Neb. 158, 532 N.W.2d 636 (1995)  . . . . . . . . . . . . 19
Lindsey v. Normet,
405 U.S. 56 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . .  17, 18
Lyle Const., Inc. v. Ohio Dep’t of Nat. Resources
Div. of Reclamation,
516 N.E.2d 209, 34 Ohio St.3d 22
(Ohio 1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  1, 17
M.L.B. v. S.L.J.,
519 U.S. 102 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Ortwein v. Schwab,
410 U.S. 656 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . .  1, 17
Psychiatric Assoc. v. Siegel,
610 So.2d 419 (Fla.1992) . . . . . . . . . . . . . . . . . . . . . . . 20
State ex rel. Caulk v. Nichols,
281 A.2d 24 (Del. 1971) . . . . . . . . . . . . . . . . . . . . . . . . 21
U.S. v. Kras,
409 U.S. 434 (1973) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Statutes and Other Authorities
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15-16

viii
Cited Authorities
Page
Ohio Civ. R. 12(B)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Ohio Rev. Code § 2505 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Ohio Rev. Code § 2505.06  . . . . . . . . . . . . . . . . . . . . passim
Ohio Rev. Code § 2505.11 . . . . . . . . . . . . . . . . . . . . . passim
Ohio Rev. Code § 2505.12 . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Ohio Rev. Code § 6119.06(W)(1) . . . . . . . . . . . . . . . . . . . . 5
Ohio Rev. Code, Chapter 2505  . . . . . . . . . . . . . . . . . . . . . 7

1
INTRODUCTION
This matter arises from the appeal of an administrative
determination by the Northeast Ohio Regional Sewer
District (“NEORSD”) regarding GPI Distributors, Inc.’s
(“GPI” or “Petitioner”) unpaid sewer bills. Petitioner
requested a hearing from the NEORSD, which the
NEORSD promptly granted. But Petitioner inexplicably
sued the NEORSD before it had reached a determination
and then filed the instant lawsuit after the NEORSD
determined that the unpaid bills were in fact due and
owing. While Ohio law permits appeals of administrative
determinations that Petitioner could have availed itself,
Petitioner failed to comply with the controlling law in the
time specified to perfect such an appeal. Only after the
time had expired to comply with Ohio’s bond provision set
forth in Ohio Rev. Code § 2505.06 did Petitioner then claim
to be indigent and challenge the law as unconstitutional.
Notwithstanding Petitioner’s arguments to the contrary,
Ohio’s bond requirement for administrative appeals is
consistent with both Equal Protection and due process
under law.
Both the Supreme Court of Ohio and this Court have
reviewed financial barriers to court access and set the
controlling standard. Under Lyle Construction, Inc. v.
Ohio Department of Natural Resources, 516 N.E.2d 209,
34 Ohio St.3d 22 (Ohio 1987), and Ortwein v. Schwab, 410
U.S. 656, 600 (1973), the Ohio Supreme Court and this
Court have considered and rejected arguments similar
to those raised by Petitioner. Because this Court has
repeatedly found that financial barriers to court access in
civil matters are not unconstitutional, the Petition instead
relies on multiple misrepresentations of the law and the
record in an attempt to manufacture an issue for review.

2
Yet a review of the record makes clear that Petitioner
was not deprived of an opportunity to appeal, there is no
state court split on this matter, and Ohio’s Eighth District
Court of Appeals opinion did not rely on the principle of
constitutional avoidance.
In fact, Petitioner had both an opportunity to be heard
at an administrative hearing before the NEORSD and
to appeal that decision to the Cuyahoga County Court of
Common Pleas. However, Petitioner did not timely post
a bond in the amount set by the court under Ohio law
pursuant to Ohio Rev. Code § 2505.06. Nor did Petitioner
substitute the bond as permitted by Ohio Rev. Code
§ 2505.11.
Instead, Petitioner initially argued that the bond
was not required under the statute. Petitioner waited
until after the Trial Court rejected this argument, set
the bond, and the time to post or substitute the bond had
expired before Petitioner claimed that it could not afford
the bond and challenged the constitutionality of Ohio Rev.
Code § 2505.06. Petitioner’s untimely arguments and
failure to utilize the alternative to a bond permitted by
Ohio Rev. Code § 2505.11 are the reason that its appeal
was dismissed. Petitioner’s claim that Ohio Rev. Code
§ 2505.06 unconstitutionally barred it from pursuing an
appeal is meritless based on the clear and controlling
precedent of this Court. Moreover, it is significant that
no state court has ever held that a statute similar to Ohio
Rev. Code § 2505.06 violated either due process or equal
protection.
Additionally, review by this Court is not warranted
because Petitioner wholly failed to seek review of the

3
constitutional questions presented in the Petition before
the Ohio Supreme Court. Instead, Petitioner seeks a review
of the arguments it presented to Ohio’s Eighth District
Court of Appeals – arguments which it subsequently
abandoned when it requested that the Ohio Supreme
Court review the case solely on other grounds. The instant
Petition does not involve the appeal of a decision of a
United States Court of Appeals or a decision by a state
court of last resort. Nor does the decision of Ohio’s Eighth
District Court of Appeals affirming dismissal for failure
to comply with both the Trial Court’s decision setting the
bond and an Ohio state statute governing the management
of administrative appeals raise an important federal
question that conflicts with a prior decision by this Court,
a United States Court of Appeals or even another state
court. Nor does it raise an important question of federal
law that has not been decided by this Court.
Accordingly, this Court should deny certiorari
because: Petitioner’s constitutional challenge was
untimely; Petitioner had an alternative to posting the bond
that it did not use; the Court has already established the
standard – which Petitioner does not meet – for financial
barriers to access the courts; and there is neither an
important question of federal law presented nor a state
court “split” that would justify review.
RELEVANT STATUTES
Ohio Rev. Code Ann. § 2505.06 (West 2019) provides:
Except as provided in section 2505.12 of the
Revised Code, no administrative-related appeal
shall be effective as an appeal upon questions
of law and fact until the final order appealed is

4
superseded by a bond in the amount and with
the conditions provided in sections 2505.09 and
2505.14 of the Revised Code, and unless such
bond is filed at the time the notice of appeal is
required to be filed.
Ohio Rev. Code Ann. § 2505.11 (West 2019) provides:
A conveyance of property may be ordered
by a court instead of a supersedeas bond in
connection with an appeal, and, if a conveyance
of property is so ordered, the conveyance may
be executed and deposited with the clerk of
the court in which the final order, judgment,
or decree was rendered, or, in the case of an
administrative-related appeal, with the clerk of
the court to which the appeal is taken, to abide
the judgment of the reviewing court.
In any appeal, in lieu of filing a supersedeas
bond, an appellant may deposit an amount of
money equal to that specified for the bond with
the clerk of the appropriate court to abide the
result of the appeal and the conditions specified
by the court.
Ohio Rev. Code Ann. § 2505.11 (West 2019) provides:
Upon the declaration of the court of common
pleas organizing the regional water and sewer
district pursuant to section 6119.04 of the
Revised Code and upon the qualifying of its
board of trustees and the election of a president
and a secretary, said district shall exercise in
its own name all the rights, powers, and duties

5
vested in it by Chapter 6119. of the Revised
Code, and, subject to such reser vations,
limitations and qualifications as are set forth
in this chapter, such district may:
...
(W)(1) Charge, alter, and collect rentals and
other charges for the use of services of any water
resource project as provided in section 6119.09
of the Revised Code. Such district may refuse
the services of any of its projects if any of such
rentals or other charges, including penalties for
late payment, are not paid by the user thereof,
and, if such rentals or other charges are not paid
when due and upon certification of nonpayment
to the county auditor, such rentals or other
charges constitute a lien upon the property so
served, shall be placed by the auditor upon the
real property tax list and duplicate, and shall
be collected in the same manner as other taxes.
RESTATEMENT OF THE CASE
A. Factual Background
On October 15, 2016, pursuant to Ohio Rev. Code
§ 6119.06(W)(1), the NEORSD certified delinquent sewer
charges in the amount of $12,047.76 to the tax duplicate for
5335 Dolloff Road, Cleveland, Ohio 44127 (the “Property”),
which is owned by Petitioner. While Petitioner was notified
of the NEORSD’s plans to certify the delinquent amounts
prior to certification, it took no action until it requested a
hearing in 2017. The NEORSD held the requested hearing
on July 12, 2017.

6
B. Procedural History
1.

GPI I

On July 12, 2017 – before the NEORSD had rendered
a decision on the administrative hearing – Petitioner
filed Case No. CV-17-883825 in the Cuyahoga County
Common Pleas Court (hereinafter “GPI I”). Petitioner
named as defendants the NEORSD, the City of Cleveland,
and individual officers of the NEORSD and the City of
Cleveland. GPI I sought declaratory judgment, challenged
the 2016 certification as unconstitutional, and argued that
the liens certified for delinquent water and sewer bills
violated due process and amounted to an unconstitutional
taking because the Property might be foreclosed.
In GPI I, Petitioner acknowledged in its Complaint
that the NEORSD afforded it an administrative hearing
but nonetheless claimed the hearing it received was
inadequate because:
[I]t held [sic] before an employee of NEORSD,
the burden is on the customer to prove the
inaccuracy of the bill, NEORSD relies on
Cleveland’s report of water consumption but
produces no Cleveland witness who may be
subject to cross-examination, and the customer
cannot compel Cleveland to provide information
at the hearing.
(Compl. ¶ 28.) GPI I was stayed after the NEORSD and
the City of Cleveland filed motions to dismiss under Ohio
Civ.R. 12(B)(6). It remains stayed pending resolution of
the instant matter.

7
2.

GPI II
a.

Trial Court Decision

On September 21, 2017, the NEORSD issued a
decision denying Petitioner’s requests for an adjustment
of the charges at issue in GPI I because Petitioner failed
to present any direct evidence that its water meter was
inaccurate. (Pet. App. at 33.) Petitioner then filed another
suit on October 12, 2017 (“GPI II”), seeking to appeal the
NEORSD’s administrative determination under Chapter
2505 of the Ohio Rev. Code.
Ohio law requi res pa r ties seek ing to appeal
administrative determinations by political subdivisions
under Chapter 2505 to file a bond pursuant to Ohio
Rev. Code § 2505.06. On October 12, 2017, Petitioner
also filed a motion styled as GPI’s Amended Motion For
Determining That No Supersedeas Bond Is Necessary
To Perfect Notice of Appeal (hereinafter “Bond Motion,”
Pet. App. at 69-78). The Bond Motion requested that the
Trial Court find that Petitioner was not required to post
a bond to pursue its administrative appeal because the
NEORSD’s decision regarding its bill was not an order
for the payment of money and, therefore, exempted under
Ohio Rev. Code § 2505.12.1 (Pet. App. at 70.) Alternatively,
Petitioner requested that the Trial Court use its discretion
to set the bond at $50. (Id.) The Bond Motion made no
reference to indigency or otherwise argue that Petitioner
could not afford a bond. (See id.) The Trial Court denied
1. Petitioner pursued this argument with Ohio’s Eighth
District Court of Appeals but has not raised it as an issue for
consideration in its Petition.

8
the request on October 19, 2017, finding that Ohio Rev.
Code § 2505.06 applied and that the lien on the Property
was insufficient to secure the amount of the unpaid sewer
bills as the tax balance on the Property exceeded its
value. (Pet. App. at 26-27.) Accordingly, the Trial Court
set the bond at $12,047.76. (Id. at 27.) Significantly, at no
point prior to the expiration of the statutory period for
perfecting an administrative appeal under Ohio law did
Petitioner claim that it was indigent or unable to pay a
bond in excess of $50.
Petitioner failed to file any bond before the time to
perfect an appeal had expired, and the NEORSD filed
a motion to dismiss on November 1, 2017. Petitioner
opposed the motion on November 28, 2017, reiterating its
arguments that no bond should be required. (Id. at 47-68.)
Specifically, Petitioner raised the same arguments about
the nature of the hearing process made in GPI I and also
claimed for the first time that the bond requirement in
Ohio Rev. Code § 2505.06 was unconstitutional because
Petitioner was allegedly indigent. (Id. at 48, 52-53.) On
January 12, 2018, the Trial Court granted the NEORSD’s
Motion to Dismiss because Petitioner had not filed the
required bond in a timely manner or substituted the
bond pursuant to Ohio Rev. Code § 2505.11. (Id. at 24-25.)
The Trial Court responded to Petitioner’s constitutional
attacks on Ohio Rev. Code § 2505 on grounds of indigency,
stating that “[l]egislative enactments are to be afforded
a strong presumption of constitutionality,” (Id. at 24), and
holding by implication that Petitioner had not overcome
that strong presumption.

9
b.

Ohio’s Eighth District Court of Appeals
Decision

Petitioner appealed the Trial Court’s dismissal to
Ohio’s Eighth District Court of Appeals. The Eighth
District affirmed the Trial Court’s dismissal. In doing so,
the Eighth District explicitly recognized that “Ohio Rev.
Code 2505.06’s bond requirement did not deny GPI access
to the courts or violate GPI’s right to a legal remedy,”
that “a person’s constitutional right to access the courts
is not unlimited,” and that “[i]n this case, GPI had access
to the common pleas court.” (Pet. App. at 20.) The Eighth
District also recognized that Petitioner had an alternative
to posting a bond under Ohio Rev. Code § 2505.11, but
that Petitioner had made no effort to substitute the bond
under that statute. (Id. at 21.)
c.

Supreme Court of Ohio Decision

Petitioner next sought review by the Supreme Court
of Ohio. But Petitioner did not ask the Supreme Court
of Ohio to review the due process and Equal Protection
issues that is the subject of its Petition to this Court.
Instead, the Petitioner asked the Supreme Court of Ohio
to consider whether the Eighth District had improperly
relied on the principle of constitutional avoidance. 2
2. The specific Propositions of Law presented to the Ohio
Supreme Court by Petitioner were:
• PROPOSITION OF LAW NO. 1: The constitutionalavoidance doctrine does not require a party challenging
the constitutionality of a statute to have complied with the
statute as a predicate to judicial review.

10
Moreover, Petitioner stated that the Ohio Supreme Court
“should accept jurisdiction not to resolve the underlying
constitutional challenges but instead to clarify the scope
of the constitutional-avoidance doctrine.” (Pet. App. at
84) (emphasis in the original).
Petitioner argued that the Ohio Supreme Court should
review the matter as a jurisdictional appeal under S.Ct.
Prac.R. 5.02(A)(1) and 5.02(A)(2), which covers appeals
raising “substantial constitutional question[s]” and a
question of “public or great general interest.” (Pet App. at
83-91.) On May 29, 2019, the Ohio Supreme Court without
elaboration declined to exercise jurisdiction (Pet. App.
at 1.) Petitioner then filed a motion for reconsideration,
arguing that the Ohio Supreme Court was required to
hear the appeal under the Ohio Constitution. The Ohio
Supreme Court also summarily denied that motion. (Pet.
App. at 34.)
REASONS FOR DENYING THE PETITION
I.

The Petition Misrepresents the Record In This Case
A.

Petitioner’s Claim of Indigency Was Not Timely

As a threshold matter, Supreme Court Rule 15.2
requires that NEORSD point out that Petitioner has
misrepresented the record in this matter. Petitioner
claims that it initially requested that the Trial Court
• PROPOSITION OF LAW NO. 2: The constitutionalavoidance doctrine does not alter well-established rules
for preserving error for appellate review.
(Pet. App. at 81.)

11
excuse it from posting the required bond because it could
not afford to do so, and that after the Trial Court denied
that request the NEORSD filed its motion to dismiss.
(Pet. at 5-6.) Petitioner cites to documents filed with its
opposition to the motion to dismiss and to the Bond Motion
(Id. at 6.) However, the Bond Motion – which the Trial
Court denied – made no reference to Plaintiff’s inability
to pay and instead argued that the bond provision in
Ohio Rev. Code § 2505.06 did not apply to its appeal and
that the lien provided adequate security. (Pet. App. at
70-75.) It was only after the Trial Court rejected both
of these arguments, set the bond at $12,047.47, and the
time to post the bond had passed that Petitioner claimed
indigency. This unexplained delay led to a finding that
any constitutional issue was not properly before the
Eighth District and that the record was underdeveloped.
Specifically, the Eighth District held that:
We further find that the administrative
appeal was not the appropriate vehicle for
determining the constitutionality of R.C.
2505.06, particularly because GPI did not assert
its constitutional challenge to the statute in the
declaratory judgment action or its motions for
determining the necessity of a supersedeas
bond. Rather, GPI raised the issue for the first
time in opposing NEORSD’s motion to dismiss.
Based on GPI’s belated constitutional challenge
to R.C. 2505.06, the constitutional issue is
underdeveloped in the record before this court.
(Pet. App. at 19,) citing 75 Pub. Square v. Cuyahoga Cty.
Bd. Of Revision, 76 OhioApp.3d 340, 346, 601 N.E.2d 628
(8th Dist.1991); Cleveland v. Williams, 8th Dist. Cuyahoga
No.106454, 2018-Ohio-2937, 119.)

12
B. The Bond Amount Was Set by the Trial Court,
Not Dictated by Statute.
Additionally Petitioner fails to address the fact that
the Trial Court set the bond at $12,047.47 because the
lien for the certified delinquent balance was inadequate
security. Specifically, the Trial Court noted that:
[ Pl a i nt i f f ’s] a dd it ion a l a r g u ment t h at
[Defendant’s] interest in the sewer bill charge
has already been secured with a lien is without
merit because the tax balance on the property
at issue exceeds the value of the property. See
[Plaintiff’s Motion, Exhibits B & C.
(Pet. App. at 27.) The Petition suggests that the lien
amount was dictated by the statute (Pet. at 5). But the
Trial Court actually ordered the amount after a review
of the documents presented by Petitioner regarding the
lien. (Id.) Petitioner relies on claims that the bond was
unnecessary for surety and duplicative because of the lien
throughout its Petition. This includes Petitioner comparing
the instant situations to a “double-bond requirement
this Court rejected” and claiming that “Ohio Rev.
Code § 2505.06 (Lexis 2019) imposes a bond requirement
onto the person already burdened by the lien.” (Pet. at
13, 17.) These assertions are nonsensical given that the
Trial Court found that the lien was not adequate security
because of the other liens on the property and the fact that
the bond amount was set by the Trial Court, not dictated
by statute.

13
C.

Petitioner Could Have Appealed Without
Posting the Bond Even if it Had Established
That It Was Indigent.

Petitioner also ignores the fact that both the Trial
Court and Eighth District rulings specifically cite to the
availability of an alternative to posting a bond. Specifically,
Ohio Rev. Code § 2505.11 provides a mechanism to
substitute for a bond by conveying property to the Court.
The Eighth District recognized that Petitioner could have
utilized this provision to pursue its appeal but failed to so
do. (Pet. App. at 16.) Yet, Petitioner wholly ignores both
the availability of the option to substitute the bond and the
role it played in the Eighth District’s opinion. The Petition
argues that Petitioner was deprived of the opportunity
to pursue an appeal by Ohio Rev. Code § 2505.06,
but Petitioner conveniently ignores that it could have
proceeded with the appeal under Ohio Rev. Code § 2505.11
under Ohio law. 3 Accordingly, Petitioner’s argument that
indigency barred any appeal is inaccurate, and all of the
state case law cited in the Petition is distinguishable on
this basis alone.
D.

The Eighth District Court of Appeals’ Decision
Did Not Rely On Ohio’s Constitutional
Avoidance Doctrine

The Petition further misrepresents the Eighth
District’s opinion. Contrary to Petitioner’s representations
3. Upon information and belief, Petitioner owned two
adjacent properties at the time it filed its Complaint that it could
have pledged. Because Petitioner did not timely raise an indigency
argument, however, it is not part of the record.

14
(Pet. at 7-8; 21-23), the Eighth District did not avoid the
constitutional questions raised by Petitioner. Rather, it
considered and then rejected them. (Pet. App. at 17-21.)
Indeed, Petitioner acknowledges this fact when it asserts
that “the Ohio Court of Appeals concluded that the lien
and lack of judicial review had not deprived GPI of due
process.” (Pet. at 18.)
To the extent that the Eighth District opinion
mentioned the principle of constitutional avoidance,
it did so in the context of characterizing the Trial
Court’s decision, where it cited various Ohio cases for
the proposition that a constitutional question will not
be reached if a case can be decided on other grounds.
(Pet. App. at 18-20). One of those citations included the
words “constitutional avoidance,” (id. at 19), and that
single reference forms the entire basis for Petitioner’s
assertion that Ohio has “warped” the application of the
constitutional avoidance doctrine.
However, after analyzing the Trial Court opinion,
the Eighth District addressed Petitioner’s specific
constitutional arguments. The Eighth District noted that
“a person’s constitutional right to access the courts is not
unlimited” and concluded that “we cannot say that Ohio
Rev. Code § 2505.06’s bond requirement denied GPI access
to the courts or violated GPI’s right to a legal remedy.”
(Id. at 19-20.) The Eighth District further recognized that
“[i]n this case, GPI had access to the common pleas court”
and that “Ohio Rev. Code 2505.06’s bond requirement did
not deny GPI access to the courts or violate GPI’s right
to a legal remedy.” (Id. at 21.) Accordingly, contrary to
Petitioner’s assertion, the Eighth District neither relied

15
on the constitutional avoidance doctrine nor avoided
addressing the constitutional issues presented.4
Moreover, to the extent that the Petition includes a
challenge to the supposed application of the constitutional
avoidance doctrine, this argument is wholly unrelated to
the question presented for review. Rather, it appears to
be a repetition of the arguments Petitioner sought review
of by the Ohio Supreme Court, arguments that the Ohio
Supreme Court declined to consider.
II. Ohio’s Court Of Last Resort Has Not Considered
The Question That Forms The Basis Of This
Petition
Petitioner now asks this Court to consider a question
that was not considered by the Ohio Supreme Court and
that it did not request the Ohio Supreme Court to review.
Petitioner is therefore not seeking review of a decision by
a state court of last resort, but a review of the decision of
an intermediate state appellate court. While Petitioner
requested that the Supreme Court of Ohio review the
Eighth District’s decision, the Supreme Court of Ohio
twice declined such a review. Accordingly, Petitioner’s
assertion that this Court has jurisdiction under 28 U.S.C.
4. The Eighth District opinion concludes with the statement
that “[f]or all of the foregoing reasons, we decline to address
GPI’s constitutional challenge to R.C. 2505.06.” (¶ 39). Yet
while the Eighth District declined to reach the question of the
constitutionality of Ohio Rev. Code § 2505.06 generally, the prior
stated reasons for doing so included an explicit determination that
the Petitioner had failed to timely raise a constitutional challenge
to Ohio Rev. Code § 2505.06, and that in the instant matter
Petitioner had not been denied access to the court.

16
§ 1257(a) is incorrect. 28 U.S.C. § 1257(a) allows for review
of “[f]inal judgments or decrees rendered by the highest
court of a State in which a decision could be had.” As the
Ohio Supreme Court declined jurisdiction over Petitioner’s
review, there is no final judgment by Ohio’s highest court,
which renders 28 U.S.C. § 1257(a) inapplicable to the
instant matter.
Moreover, the Petition neglects to mention that it
is now requesting this Court review a wholly separate
question than it presented to the Ohio Supreme Court.
In its memorandum seeking jurisdiction by the Ohio
Supreme Court, Petitioner urged that that Court
“should accept jurisdiction not to resolve the underlying
constitutional challenges, but instead to clarify the
scope of the constitutional-avoidance doctrine— that
is, to clarify the appellate court’s obligation to address
GPI’s constitutional arguments on their merits.” (Pet.
App. at 84) (emphasis in the original). However, Petitioner
asks this Court to review constitutional challenges to
Ohio Rev. Code § 2505.06 – challenges which it raised
before the Eighth District but chose not to appeal to the
Ohio Supreme Court. Not only did Petitioner abandon
any federal question regarding due process and Equal
Protection that it may have had, but it failed to exhaust
the available state remedies when it requested that that
Ohio Supreme Court consider only the applicability of
the constitutional avoidance doctrine.
III. There Is No State Court Split Regarding Bond
Requirements For Administrative Appeals
Petitioner fails to cite to any case from any state that
holds that a bond requirement to appeal an administrative

17
determination similar to the one at issue here is
unconstitutional. That is because indigency is not a suspect
class. Ortwein v. Schwab, 410 U.S. 656, 660 (1973). Indeed,
this Court has repeatedly found that financial barriers to
access in civil matters are not unconstitutional. In Ortwein,
410 U.S. at 656, this Court rejected arguments that a
filing fee required to challenge an agency determination
reducing welfare awards violated Equal Protection. Id. at
656. Applying rational basis review, this Court held that
the fees were not unconstitutional because their purpose
was obvious and the fees were not disproportionate. Id.
Similarly, in U.S. v. Kras, 409 U.S. 434, 447, (1973), this
Court recognized that the rationale for fees required prior
to filing bankruptcy was readily apparent and did not
violate Equal Protection. Cf. Burns v. State of Ohio, 360
U.S. 252 (1959) (holding that filing fees requirements for
appellate review in criminal cases was unconstitutional).
In Lyle, 34 Ohio St.3d 22, the Ohio Supreme Court
held that a requirement to prepay a civil penalty in order
to appeal an administrative decision did not violate Equal
Protection, even though the appellant submitted an
affidavit of insolvency. The Court concluded that because
the only interest at issue was pecuniary and wealth is
not a suspect class, only a rational basis was required to
satisfy Equal Protection requirements. Id. at 26-27. This
Ohio Supreme Court holding is wholly consistent with
this Court’s earlier decision in Lindsey v. Normet, 405
U.S. 56, 69-74 (1972), where this Court determined that
a double-bond required for tenants to appeal evictions
was unconstitutional. This Court in Lindsey applied
rational basis review and determined that the statute’s
imposition of a bond for twice the rental value – which
would be automatically forfeited if the underlying decision

18
was upheld – was arbitrary and irrational because it was
unrelated to the actual rent accrued or the damages
incurred by the landlord. Id. at 77-78. Notably, this Court
in Lindsey recognized that securing disputed property
and discouraging insubstantial appeals were legitimate
state interests. Id. at 78 (“We do not question here
reasonable procedural provisions to safeguard litigated
property.”). Ultimately, this Court’s decision turned on the
fact that “the State ha[d] not sought to protect a damage
award” but “ha[d] automatically doubled the stakes when
a tenant seeks to appeal an adverse judgment under [the
law].” Id. at 78. Here, there is no question that the stakes
have been doubled as in Lindsey because the Trial Court
found that the lien did not provide security for the District
because of the existence of other liens, nor does Ohio Rev.
Code § 2505.06 dictate a double bond.
The bond requirement set forth in Ohio Rev. Code
§ 2505.06 neither limits a criminal defendant’s access to
an appeal nor imposes a disproportionate and automatic
penalty on appellants. Moreover, the actual bond set by the
Trial Court in this matter was determined by the amount
of the certified sewer amounts that GPI challenges.
GPI has not – and cannot – argue that setting the bond
as security on the amount of its unpaid sewer bills is
arbitrary. Courts have routinely recognized that states
have a right to condition access on providing an adequate
security. See Adsani v. Miller, 139 F.3d 67, 77 (2d Cir.1998)
(“Once established, the right to appeal, however, may be
limited by statute requiring, for instance, the posting
of security for expenses…without offending principles
of Equal Protection or Due Process fairness.”); see also
Lindsey, 405 U.S. at 78-79.

19
To the extent the Petition tries to rely on Boddie
v. Connecticut, 401 U.S. 371 (1971), any comparison to
the instant matter is entirely misplaced because Boddie
did not involve the administrative appeal of a pecuniary
dispute. 401 U.S. 371, Rather, the Court in Boddie –
after a lengthy discussion that due process is generally a
consideration as to defendants – reached the conclusion
that due process considerations in cases involving the
dissolution of marriage should be viewed similarly to
due process for defendants. Id. at 374-375. The Court
ultimately made an exception to that general principle
given the unique importance of marriage to society. Id.
at 374-375. Boddie expresses the exception rather than
the rule and is wholly inapplicable here. As noted in later
cases, “the Court has consistently set apart from the
mine run of civil cases those involving state controls or
intrusions on family relationships.” M.L.B. v. S.L.J., 519
U.S. 102, 103 (1996) (“[A] constitutional requirement to
waive court fees in civil cases is the exception, not the
general rule.”).
In the face of clear guidance by this Court regarding
the right to access courts, Petitioner can offer only a
number of readily distinguishable state cases. However,
this Court has already established clear standards for
when barriers to court access may raise constitutional
concerns. How various state courts have reviewed their
laws governing access to their courts does not create a
state court “split” that justifies review by this Court or
alteration of this Court’s long-standing precedent.
Notwithstanding this fact, the Petition fails to cite case
law from any state that holds that a bond for the purposes
of security in an administrative appeal is unconstitutional.

20
Rather, the statutes at issue in the cases proffered by
Petitioner either prevented any administrative review,
required the prepayment of additional costs or penalties,
or turned on state-specific considerations. For example, in
Psychiatric Association v. Siegel, 610 So.2d 419 (Fla.1992),
the Florida Supreme Court relied on the interpretation
of a Florida constitutional provision regarding the right
to access and a review of Florida state law. Additionally,
the Florida law at issue required a bond that included
costs and attorneys’ fees. The court in Siegel also made a
point of distinguishing case law regarding a requirement
for pre-suit mediation before a medical mediation panel
specifically because the bond requirement at issue involved
no review on the merit by a panel before requiring the
posting of a bond. The Supreme Court of Idaho’s decision
in Frizzell v. Swafford, 104 Idaho 823, 827–828, 663 P.2d
1125, 1129–1130 (1983), turned on the fact that the small
claims proceedings at issue did not permit the parties to
have counsel. The Idaho statute in Frizzell, unlike the Ohio
statute here, required prepayment of costs and attorney’s
fees in addition to a surety.
Moreover, Coroneos v. Montgomery County, 161
Md. App. 411, 427, 869 A.2d 410, 419 (2005), dealt with a
Maryland law denying an administrative hearing until
costs for animal care were paid; it was not an appeal to
state courts of an administrative determination. The
Maryland Supreme Court addressed this matter in the
context of statutory interpretation of Maryland law
and did not consider the constitutionality of the statute,
much less whether that statute ran afoul of due process.
Similarly, the Nebraska Supreme Court in Jones v. State,
Department of Revenue, 248 Neb. 158, 167, 532 N.W.2d
636, 643 (1995), addressed the constitutionality of an

21
Administrative Procedure Act that barred parties from
getting an administrative hearing until they paid the
taxes they were disputing, requested a refund, and were
denied. See also Boll v. Dept. of Revenue, State of Neb.,
247 Neb. 473, 480, 528 N.W.2d 300, 305 (1995) (analyzing
§ 77–4312(4) and finding that barrier to a redetermination
hearing, which prevented the exhaustion of administrative
remedies, unconstitutionally prevented access to court.)
Nor does Ball v. Gee, 243 Mont. 406, 409-410, 795 P.2d
82 (1990), address the question of bonds for appeals of
administrative decisions. Rather, the Montana Supreme
Court in Ball considered a Montana state statute that
required defendants in a quiet title action to deposit
with the court an amount equal to the taxes owed by the
appellant, three years’ worth of taxes paid by the current
owner, and whatever improvement and maintenance costs
were incurred by the current owner within three years
of purchase. Id. Failure to pay these amounts prevented
the defendants from raising any defenses in a quiet title
action. Id.
Most notably, in State ex rel. Caulk v. Nichols, 281 A.2d
24, 26–27 (Del. 1971), Delaware held that the Delaware
statute at issue was not unconstitutional. It specifically
rejected any application of Boddie and noted that “[w]e
prefer…to leave it to the Legislature to determine whether
any change should be made in the conditions under which
an appeal may be taken from the Justice of the Peace
Courts.” (affirming decision refusing to waive statutory
bond requirement).

22
CONCLUSION
For the foregoing reasons, this Court should deny the
petition for a writ of certiorari.
Respectfully submitted,
Jennifer Dowdell A rmstrong
Counsel of Record
McDonald Hopkins LLC
600 Superior Avenue, East, Suite 2100
Cleveland, Ohio 44114
(216) 348-5400
jarmstrong@mcdonaldhopkins.com
March 11, 2020

Counsel for Respondent

